         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Audit Report




       Number of and Cost to Award and
       Manage EPA Earmark Grants, and the
       Grants’ Impact on the Agency’s Mission

       Report No. 2007-P-00024

       May 22, 2007
Report Contributors:	     Alfred Falciani
                          Randy Holthaus
                          Kevin Lawrence
                          Matthew Simber
                          Khadija Walker




Abbreviations

EPA          U.S. Environmental Protection Agency 

EPM          Environmental Programs and Management (appropriation account) 

FTE          Full-Time Equivalency 

OIG          Office of Inspector General 

S&T          Science and Technology (appropriation account) 

STAG         State and Tribal Assistance Grants (appropriation account) 

                       U.S. Environmental Protection Agency                                            2007-P-00024

                                                                                                        May 22, 2007

                       Office of Inspector General


                       At a Glance

                                                                          Catalyst for Improving the Environment

Why We Did This Review           Number of and Cost to Award and Manage
Based on a congressional         EPA Earmark Grants, and the Grants’ Impact on
request, we reviewed             the Agency’s Mission
congressional earmark grants
awarded by the U.S.               What We Found
Environmental Protection
Agency (EPA). Specifically,
the requestor asked us to        Between January 1, 2005, and March 31, 2006, EPA awarded 444 earmark grants
determine the total number       totaling $454 million. Those earmarks accounted for about 13 percent of the grant
and dollar amount of earmark     dollars EPA awarded. During this same time, EPA spent about $4.9 million to
grants, including EPA’s          award and manage the 444 earmark grants.
associated costs. The
requestor also asked us to       Our review of work plans for 86 earmark grants found that 82 were for projects
determine what impact            aimed at contributing to EPA’s Strategic Plan mission and goals. Thus, we
earmarks had on advancing        considered them to be helping to advance EPA’s mission and goals. Grant work
EPA’s mission and goals.         plans for the other four grants did not demonstrate how the projects would
                                 promote EPA goals:
Background
                                     •	 A non-profit organization used about half its grant funds to purchase
For this report, we define a
                                        computers for a high school and support student trips between the
congressional earmark as a
                                        United States and U.S. Virgin Islands.
numbered line item within a
                                     •	 A university studied noise levels from parked, idling trains.
House Conference Report
specifying a dollar amount,          •	 A local government did not identify how two of the earmark grants were
recipient, and a particular             going to achieve the objectives stated in the work plans or how the
project. Since 2003, earmarks           projects would impact the environment.
have represented about 4 to 6
percent of EPA’s annual          We are not making any recommendations in this report.
budget. While EPA awards
the majority of earmark grants   In responding to the draft report, EPA noted that the Office of Inspector General
to States and local              found that most earmarks have the potential to contribute to EPA’s mission.
governments, it also awards      Further, EPA believes that two of the four earmark grants we questioned (for the
earmark grants to universities   non-profit and the university) contributed to the Agency’s mission. In comparing
and non-profit organizations.    the work plans to the Agency’s goals, we did not agree that the earmark grants
                                 contributed to the Agency’s mission. EPA is conducting a compliance review of
                                 one of the grants to ensure funds were not used for unallowable activities. For the
For further information,         two grants to the local government, EPA is working with the recipient to revise the
contact our Office of
                                 work plans.
Congressional and Public
Liaison at (202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2007/
20070522-2007-P-00024.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF 

                                                                                   INSPECTOR GENERAL




                                          May 22, 2007

MEMORANDUM

SUBJECT:       Number of and Cost to Award and Manage EPA Earmark Grants,
               and the Grants’ Impact on the Agency’s Mission
               Report No. 2007-P-00024

TO:            Luis Luna
               Assistant Administrator
               Office of Administration and Resources Management


This is our report on the number and cost of congressional earmark grants, and whether such
grants advance the U.S. Environmental Protection Agency’s (EPA’s) mission and goals. This
report contains our analysis and conclusions related to 86 earmark grants that we reviewed.
This report represents the opinion of the Office of Inspector General and does not necessarily
represent the final EPA position. Final determinations on matters in this report will be made by
EPA managers in accordance with established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $283,509.

Action Required

Because this report contains no recommendations, you are not required to respond to this report.
We have no objections to the further release of this report to the public. This report will be
available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0847
or roderick.bill@epa.gov; or Janet Kasper, Director, Assistance Agreement Audits, at
312-886-3059 or kasper.janet@epa.gov.




                                                             Bill A. Roderick
                                                             Acting Inspector General
                         Number of and Cost to Award and Manage EPA Earmark Grants,
                               and the Grants’ Impact on the Agency’s Mission




                                         Table of Contents 

Purpose ................................................................................................................................    1


Background ..........................................................................................................................       1     


Scope and Methodology .....................................................................................................                 1     


Number of Earmarks and Associated Costs to Award and Manage ...............................                                                 2     


Impact Earmarks Had on Advancing EPA’s Mission and Goals .....................................                                              2     


Status of Recommendations and Potential Monetary Benefits.......................................                                            6     




Appendices
     A       Details on Scope, Methodology, and Prior Audit Coverage..............................                                          7     


     B       STAG Earmark Grants Reviewed ........................................................................                         10 


     C       EPM and S&T Earmark Grants Reviewed ..........................................................                                12 


     D       Agency Response ................................................................................................              14 


     E       Distribution ...........................................................................................................      16 

Purpose
In August 2006, U.S. Senator Tom Coburn of Oklahoma requested that the Office of Inspector
General (OIG) review congressional earmark grants awarded by the U.S. Environmental Protection
Agency (EPA). Specifically, he asked that we:

       1.	 Determine the total number of earmarks and EPA’s associated costs to award and
           manage such grants.
       2.	 Assess the impact that earmarks had on advancing EPA’s mission and goals.

Background
For the purpose of this report, we define a congressional earmark as a numbered line item within
a House Conference Report typically specifying a dollar amount, recipient, and project. Agency
policy (Grants Policy Issuance 03-01) states: “EPA will generally honor directions to make
assistance awards for earmarks if it has the statutory authority to award the financial assistance.”
EPA requires earmark recipients to meet all Federal grant requirements. EPA awards most of its
earmark projects as grants or cooperative agreements. In this report, we refer to both grants and
cooperative agreements as grants.

Earmark projects are identified in the House Conference Report on an annual basis. Congress
includes these earmark awards under the following three appropriation accounts:

       •	 Environmental Programs and Management (EPM): For projects under various
          media – air, water, land, etc.
       •	 Science and Technology (S&T): Primarily relating to research and development
          projects.
       •	 State and Tribal Assistance Grants (STAG): Primarily for water infrastructure
          projects or their technical oversight.

Before awarding a grant to an earmark recipient, EPA requires grant applicants to complete an
Application for Federal Assistance. In this application, recipients must submit a statement of
work or work plan. EPA requires that work plans describe the proposed project and the project’s
intended environmental results.

Since 2003, earmarks have represented between 3.8 and 6.4 percent of EPA’s annual budget.
While EPA awards the majority of earmarks to States and local governments, it also awards
earmarks to universities and non-profit organizations.

Scope and Methodology
We performed our audit in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States. We conducted our audit work from October 2006 to
February 2007. We gathered information from EPA Headquarters and all 10 EPA regions. We
reviewed the work plans for 86 earmark grants EPA awarded from January 1, 2005, to March 31,


                                                 1

2006. We also spoke with the grant project officers when work plans appeared to have
questionable links to EPA’s Strategic Plan. See Appendix A for further details on the audit
scope and methodology, including prior audit coverage.

Number of Earmarks and Associated Costs to Award and Manage

Between January 1, 2005, and March 31, 2006, EPA awarded 444 earmark grants totaling
$454 million. We estimated EPA’s cost to award and manage the 444 earmark grants to be
$4.9 million (see Table 1). This estimate includes salaries and overhead costs for project officers
and grant specialists, salaries for non-grants management staff that track and assist with the
earmark awards, and costs to maintain a database. EPA awarded 3,995 new and continuing
grants, totaling $3.5 billion, within our review period. The cost to award and manage all EPA
grants totaled $100.3 million.1 Appendix A provides details on how we developed the estimates.

Table 1. EPA’s Cost to Award and Manage Earmarks
   Cost Category                                                     Dollar Amount
Cost of salaries and overhead for project officers and grants            $ 4,342,331
specialists to award and manage the 444 earmarks from
January 1, 2005, through March 31, 2006
Regional Offices of Congressional and Intergovernmental                      390,094
Relations costs to track and assist with awarding earmark grants
Office of the Chief Financial Officer costs to track and assist with         115,746
awarding earmark grants
Headquarters Office of Congressional and Intergovernmental                    38,475
Relations costs to track and assist with awarding earmark grants
Contractual costs for the Stakeholder Database                                25,000

Total EPA Cost to Award and Manage Earmarks                                   $ 4,911,646
Source: OIG calculations based on EPA workforce and budget models.

We did not include in this cost estimate the funding EPA and Congress agreed would be set aside
for STAG earmark grants management and oversight. EPA awards the set-aside amount to
States or the U.S. Army Corp of Engineers to oversee the technical aspects and progress of water
infrastructure projects. EPA does not use this funding, and the technical oversight the State and
U.S. Army Corp of Engineers perform is in addition to EPA’s management of these grants.

Impact Earmarks Had on Advancing EPA’s Mission and Goals

We reviewed 86 grants; 38 were EPM and S&T earmarks, while the remaining 48 were STAG
earmarks. Most earmark projects have the potential to contribute to EPA’s mission, but 4 of 86
we reviewed did not. The grant work plans for these four grants did not demonstrate how the
projects would promote EPA goals. These four were under the EPM and S&T accounts.




1
  The $4.9 million does not include costs to manage active earmarks awarded prior to January 1, 2005, but the cost
is included in the $100.3 million. Information needed to calculate the cost to manage all active earmarks from
January 1, 2005, to March 31, 2006, was not readily available in EPA systems.


                                                         2

STAG Earmark Grants Contributed to EPA’s Mission

Of the 444 earmark grants EPA awarded, the remaining 369 grants, totaling
$377.4 million, were included under the STAG appropriation account. We reviewed a
random sample of 48 STAG grants, totaling $87.7 million. We found that all 48 grants
showed the potential to contribute to EPA’s mission and goals (see Appendix B). The
majority of these earmarks funded wastewater infrastructure expansion or improvements
in local communities across the country. For example, one earmark project proposed to
construct a new sanitary sewer system that would substantially reduce contaminants from
seeping into the ground water and thus improve the community’s water quality. Another
project was to build a new wastewater treatment plan, thus improving the community’s
ability to treat wastewater and eliminate failed septic systems.

Work Plans Did Not Demonstrate How the Projects Would Promote
EPA Goals for Four EPM and S&T Earmarks

Of the 444 earmark grants EPA awarded, 75, totaling $76.7 million, were included under
the EPM and S&T accounts. We reviewed a random sample of 38 earmark grants
totaling $30.5 million (see Appendix C). Most of these earmark grants proposed projects
to conduct environmental studies, perform research, and provide outreach and education.
We concluded that 34 of these demonstrated the potential to contribute to EPA’s mission
and goals. For example, an earmark project to the State of Alaska, funded at nearly
$1 million, proposed to study the level of mercury and other toxins in fish in selected
Alaskan communities to determine potential human health risk. The grant work plans for
the other four grants did not demonstrate how the project would promote EPA goals.
Details on these four grants follow.

       Caribbean American Mission for Education, Research and Action, Inc.

       EPA awarded an earmark grant in 2005 to the Caribbean American Mission for
       Education, Research and Action, Inc., for $497,050. The Fiscal Year 2004 House
       Conference Report provided funding to this recipient “in support of their youth
       environmental stewardship and education program.” The work plan proposed a
       project to provide education and promote environmental stewardship to high
       school students in Philadelphia, Pennsylvania, and the U.S. Virgin Islands. The
       grant was amended in 2006 to provide an additional $694,400 for similar
       activities.

       While environmental stewardship is part of EPA’s mission, we determined after
       reviewing the work plan and proposed budget that 52 percent of the project’s cost
       was for travel – for Philadelphia high school students to go to the U.S. Virgin
       Islands and for U.S. Virgin Islands students to travel to Philadelphia ($356,012) –
       and to purchase computers and distance learning equipment ($261,590).
       According to the trip agendas, the U.S. students were to take an eco-kayak tour,
       attend a lecture, and visit an environmentally-designed camp while in the Virgin
       Islands. The Virgin Islands students were to participate in service learning
       projects and tour a watershed education center in Philadelphia. The U.S. students


                                        3

also visited Coral World Ocean Park and resort locations, while both groups took
shopping trips. Less than half the time was spent on environmental-related
activities. The recipient’s justification for purchasing 128 computers, servers, and
associated hardware and software was that it would enhance the technical skills of
the students, enhance the technology available to each school, and expand the
students’ world view and educational experiences. While the students used the
computers in learning about environmental issues, they met general educational
needs that are not part of EPA’s mission.

In responding to the draft report, EPA stated that the work plan for the Caribbean
American Mission grant was explicit that the purpose of the project was to
provide students with an opportunity to increase their knowledge about the
environment with a special emphasis on an understanding of the ecological
system in urban areas and in the Caribbean. EPA disagreed with the report’s
suggestion that EPA included substantial funding in the approved work plan for
student travel between Philadelphia and the U.S. Virgin Islands, student visits to
amusement parks and resort locations and student shopping trips. Region 3 is in
the process of conducting a compliance review of the project. If the review finds
that grant funds were used for travel involving amusement parks, resort locations,
or shopping trips, the Region will seek recovery of the funds.

We agree that certain portions of the work plan indicated that the grant would
develop an understanding in students of the importance of caring for the
environment locally and globally, as EPA stated in it response. However, the
work plan identified the exchange field trips as a centerpiece of the program and a
substantial amount (30 percent) of the grant budget. A majority of the costs were
to fund travel and computers where the primary focus was not environmental
education and stewardship. Region 3 is taking appropriate action in conducting a
compliance review of the grant.

Rutgers, The State University of New Jersey

EPA awarded an earmark grant to Rutgers, The State University of New Jersey,
for $299,907. The Fiscal Year 2004 House Conference Report said the project
was: “to conduct a study of environmental noise from interstate freight railroad
operations in Teaneck, New Jersey.” The project was to study and evaluate the
impact of noise of parked, idling freight trains on the local community. The
recipient was to measure sound levels inside and outside homes and identify
strategies to reduce noise levels. However, EPA’s Strategic Plan does not include
measuring or studying noise pollution. EPA phased out funding of the noise
pollution program in 1982.

In response to the draft report, EPA stated that the Rutgers grant supported the
goal to help communities address specific local environmental concerns. EPA
acknowledged that the Agency no longer explicitly includes noise among the
goals and objectives of the Agency’s Strategic Plan, and that EPA no longer has a


                                 4

noise regulatory program. However, the Office of Air and Radiation believes that
the type of community support provided under this grant to a community in New
Jersey supports EPA’s Goal 4, Healthy Communities and Ecosystems, Sub-
objective 4.2: Communities. EPA stated that this sub-objective focuses on EPA
activities that will help communities sustain or restore community health by
addressing community-specific environmental concerns.

We agree that the grant may be beneficial in addressing the community-based
issue of noise pollution, but the work plan does not demonstrate how it will
promote the Agency’s goals of protecting air, water, and land.

City of New Bedford, Massachusetts

EPA awarded two earmark grants to the City of New Bedford, Massachusetts, for
a total of $497,100. The Fiscal Year 2004 House Conference Report provided
funding for this recipient for “environmental education and science programs.”
One project proposed to encourage students to pursue environmental careers and
train the local community for environmental jobs. The second project proposed to
construct and equip a computer lab to enhance a marine science learning center.
However, neither work plan identified outcomes or activities that would be
performed to achieve the objectives. EPA awarded the grants in September 2005,
but as of March 2007 the recipient had not spent any of the approved funds for
either project.

EPA is working with the City to improve the quality of the work plans. EPA
advised us that the City submitted new work plans for the grant in April 2007.
For one grant, the City plans to establish a task force to identify areas under which
it can train citizens in environmental careers. The work plan did not identify
specific environmental problems the grant would address. The second grant
would establish and implement a marine science education program in the New
Bedford Public Schools. As of May 10, 2007, EPA was in the process of
reviewing the work plans.




                                  5

                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                  POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                BENEFITS (in $000s)

                                                                                                      Planned
     Rec.    Page                                                                                    Completion   Claimed    Agreed To
     No.      No.                         Subject                       Status1    Action Official      Date      Amount      Amount


                                   No recommendations




1	    O = recommendation is open with agreed-to corrective actions pending
      C = recommendation is closed with all agreed-to actions completed
      U = recommendation is undecided with resolution efforts in progress




                                                                              6

                                                                                 Appendix A

                  Details on Scope, Methodology,
                     and Prior Audit Coverage
Scope and Methodology
We performed our audit in accordance with Government Auditing Standards, issued by
the Comptroller General of the United States. We gathered information from EPA
Headquarters and all 10 EPA regions. We interviewed EPA Headquarters managers and
staff within the Office of Congressional and Intergovernmental Relations, Office of the
Chief Financial Officer, Office of Air and Radiation, Office of Environmental
Information, Office of Water, and Office of Research and Development.

We reviewed earmark grants awarded from January 1, 2005, through March 31, 2006.
We chose this period so that we could review work plans subject to EPA’s Environmental
Results Order that became effective January 1, 2005. We asked EPA for a list of all
grants awarded within the time period, and a separate list of all earmark grants awarded
within the period. EPA awarded 3,995 assistance agreements in the time period,
including 444 earmark grants.

To review management controls regarding the applicability of grant work plans to EPA’s
mission, we reviewed Funding Recommendations and Decision Memoranda to ensure
that project officers complied with the Environmental Results Order and that they
provided a link for each project to EPA’s mission and goals.

Audit Objective 1

To determine the cost to award earmarks, we used the models from an EPA-contracted
study, Management of Assistance Agreements at the Environmental Protection Agency,
issued April 2005. We did this to estimate the full-time equivalency (FTE) of project
officers and grants specialists within the time period we examined (see Table 2). We
reviewed the study and its methodology for estimating grants management work force
efforts and used the same methodology because we considered it sound.

Table 2. Workforce Model Results for FTE Estimates
                                                      January 1, 2005 to       October 1, 2005
                                                     September 30, 2005       to March 31, 2006
 Project Officer FTE Estimate (earmarks)                      20.85                 11.50
 Grants Specialist FTE Estimate (earmarks)                     4.83                  3.45
 Total FTEs for Earmark Grants                                25.68                 14.95
Source: OIG calculations based upon EPA grants management workforce models.


We estimated the costs to award and manage the 444 earmark grants to be $4.9 million
based on a formula EPA used to develop its budget in accordance with Office of
Management and Budget Circular A-11. EPA used the formula to calculate the total cost



                                                7

of its project officers and grants specialists. The formula took the FTE level, multiplied it
by $85,500 (as a median salary), added 25 percent for overhead, and added other
associated costs. We developed our estimate by taking 75 percent (for the 9 months
reviewed) of Fiscal Year 2005 and adding in 50 percent (for the 6 months reviewed) of
the Fiscal Year 2006 amounts. To calculate EPA’s costs to award and manage all grants
within our review period, we took the amounts from EPA’s A-11 Report and added
75 percent of EPA’s Fiscal Year 2005 costs and 50 percent of the Fiscal Year 2006 costs,
for a total of $100.3 million.

We also determined the cost of EPA staff who work with earmarks other than project
officers and grants specialists plus the cost of information technology systems to be
$569,315. Staff in EPA Headquarters and regional Offices of Congressional and
Intergovernmental Relations gave us time estimates for their work on earmarks and the
amount EPA expended to maintain its Stakeholder Database. EPA uses this database to
track earmark grants and it allows EPA financial and congressional relations staff to
monitor earmark grants from appropriation to award. By adding the $569,315 to the
$4,342,331, the total cost to award and manage earmarks in our review period was
$4,911,646.

Audit Objective 2

To assess the impact of earmarks on EPA’s mission, we reviewed the work plans for
86 earmark grants. Congress included the population of earmarks within three
appropriation accounts – EPM, S&T, and STAG. Since 369 of the 444 earmarks were
appropriated under the STAG account, we were concerned that any reasonable sample of
the whole would not include earmarks from the EPM and S&T groups. To ensure that
EPM and S&T earmark grants would be reviewed, we selected a random sample of 38
from the EPM and S&T accounts and a separate random sample of 48 from the STAG
account. Lists of the earmark grants included in each sample are in Appendices B and C.

For each sample, we compared the work plans to the goals, objectives, and sub-objectives
EPA presented in its Fiscal Year 2003-2008 Strategic Plan. In some cases, we referred to
EPA’s stated strategies within the text of the Strategic Plan pertaining to particular
objectives. In instances where the earmark grant work plans did not appear to have a link
to EPA’s Strategic Plan, we spoke with the grant project officers to verify our
understanding of the project.

We extracted award documents and funding recommendations from EPA’s Integrated
Grants Management System. The information we obtained from these electronic forms
was limited to recipient names, award amounts, project descriptions, and links to EPA’s
strategic goals and objectives. We did not test the controls over the Integrated Grants
Management System to ensure its validity and reliability, as the information it contained
was not significant to our conclusions under either objective.




                                             8

Prior Audit Coverage
On September 30, 1996, OIG reported on EPA’s management of earmark grants in
Report No. E1FBE4-04-0261-6100313, Capping Report on Audits of Congressionally
Earmarked Assistance to Selected Universities. The report noted problems with EPA
assistance agreement management, such as oversight not being a high priority and project
officers having minimal involvement in managing grants. This led to $5 million in
questioned costs.

On September 26, 2006, we issued Report No. 2006-P-00037, EPA Needs to Emphasize
Management of Earmark Grants. This report summarized what we had noted in reports
regarding earmark grants since 1996. We reported that EPA had not managed earmark
grants in accordance with Agency policy and regulations. Some EPA employees and
recipients believed that since earmark grants had already been approved by Congress, the
Agency had limited control over them. Although EPA policies require that earmarks be
managed the same as any other assistance agreement, we found incomplete grant work
plans, improper accounting and financial procedures, noncompliance with grant terms
and conditions, noncompliance with applicable laws and regulations, and conflicts of
interest. In response to the report, EPA issued a memorandum in November 2006 to
Agency Senior Resource Officials reiterating existing policy and indicating the need to
coordinate with the Office of Congressional and Intergovernmental Relations and the
Office of the Chief Financial Officer on earmark issues. The Office of Grants and
Debarment also plans to refer to the memorandum in its Basic Project Officer Training
course.




                                           9

                                                                                                                Appendix B

                           STAG Earmark Grants Reviewed
                                                                                                    Total
  Grant                                                                                            Project         EPA
 Number               Recipient                            Short Description                       Budget       Contribution

                 Earmark Grants That Contributed to EPA's Strategic Plan Mission and Goals (48)
97145601     City of Bristol Water          Install an emergency bypass pipe which serves a         $870,000         $288,700
             Department                     water filtration plant
97144101     City of Meriden                Assess soil and groundwater contamination and            262,394          144,300
                                            develop a remedial action plan for property
                                            re-development
97122301 	   Maine Department of            Provide oversight and support to four                     31,300           31,300
             Environmental Protection       New England municipalities in implementing
                                            wastewater infrastructure projects

97144401     Rhode Island Department of 
   Provide oversight and support to three Rhode              41,634           41,634
             Health 
                       Island municipalities in implementing drinking
                                            water infrastructure projects
97142901     Town of Warren                 Implement repairs on sanitary sewer system                847,727         481,100
97272805     Bayonne Municipal Utilities    Plan and construct a water main                         2,186,909       1,202,800
             Authority
98286701     City of Dunkirk                Improve the capacity of a wastewater treatment           701,273          385,700
                                            plant
98255005     New York State                 Provide oversight and support of various                7,698,000       3,849,000
             Department of                  watershed remediation and protection activities
             Environmental Conservation     such as water inspections, sampling, and Total
                                            Maximum Daily Load development
97270905     Orange County Water            Design and construct a wastewater disposal               524,909          288,700
             Authority                      system
97278505     Town of Blooming Grove         Construct a wastewater treatment plant                   437,455          240,600
98286504     Town of Floyd 	                Perform preliminary design and engineering of a          394,182          216,800
                                            drinking water system
98286601     Town of Grand Island           Construct a wastewater transmission line to route        438,364          241,100
                                            wastewater from failing subsurface disposal
                                            systems to an existing treatment plant
97272505     Township of Parsippany-        Improve existing drinking water and wastewater          2,624,182       1,443,300
             Troy Hills                     pumping stations and construct a new drinking
                                            water pumping station and transport system
97318201     Laporte Borough                Replace a water distribution line                        543,000          144,600
97317501 	   Summit Township Sewer          Replace a leaking sanitary sewer system                  438,364          241,100
             Authority
97321401     Town of Cheltenham             Perform improvements on sewer lines                       350,727         192,900
96419806     Chesterfield County Rural      Construct a drinking water transmission system          3,373,937         289,300
             Water Company, Inc.
96419505     City of Camden                 Construct a drinking water storage tank and              496,400           96,400
                                            transmission
96422405     City of Owenton                Construct a drinking water intake structure               736,890         387,160
96444106     Knott County Fiscal Court      Construct a water treatment plant                       6,120,500       1,900,500
96424605     Orange County Utilities        Construct a new sanitary sewer system                   5,070,240         723,000
             Department 

96425905     Town of Jackson                Design and construct a new community drinking 
          308,500          164,800
                                            water well and chemical treatment facility

96579101     City of Delphos                Design and construct a river intake and pump           14,536,000       3,132,100
                                            station
96570301     Indiana State Budget Agency    Provide oversight and support in implementing            362,350          362,350
                                            wastewater infrastructure projects
96503301     Lake County Stormwater         Install a wetland and prairie buffer; create a water    1,016,100         482,100
             Management Commission 	        quality treatment wetland; and restore and 

                                            stabilize a stormwater drain 

96570401     Village of Beach City, Ohio    Upgrade wastewater treatment plant to increase 
        3,823,400       1,451,800
                                            capacity and effectiveness 





                                                              10 

                                                                                                    Total
  Grant                                                                                            Project          EPA
 Number                Recipient                             Short Description                     Budget        Contribution
96579501     Village of East Hazel Crest      Construct a water pump station and ground             $1,068,300        $288,600
                                              reservoir
96572301     Village of Haskins               Construct a wastewater treatment plant                 2,691,800        289,300
96575801     Village of Libson, Illinois      Plan and design improvements to a current                78,535           43,195
                                              wastewater collection and treatment system
96568601     Village of Somerset, Ohio        Remodel and expand an existing wastewater              2,700,000         482,100
                                              treatment plant
96613801     	Bernalillo County,              Construct a drinking water and wastewater               349,819          192,400
             New Mexico                       system
96600001     City of Alvin                    Construct new water lines                               262,364          144,300
97690201 	   City of Fayetteville             Repair a sanitary sewer system                         1,928,182       1,060,500
97690301     City of Lawton                   Construct water lines and conduct other system         2,629,819       1,446,400
                                              improvements
96615601     North American Development       Plan and construct water and wastewater                1,000,000       1,000,000
             Bank                             infrastructure projects on US/Mexico border
97699101     State of Louisiana Military      Construct wastewater treatment plant; upgrade          1,746,400         960,500
             Department                       pump station; and increase holding capacity
97691101     Texas Engineering Extension      Facilitate training for personnel who build,            784,816          745,575
             Service                          operate, manage, and direct water and
                                              wastewater systems in the US/Mexico border
                                              region
98759501     City of Branson West             Upgrade the wastewater treatment facility to            430,910          237,000
                                              reduce pollution discharges
97830001     City of Helena                   Upgrade a water treatment plant 	                      2,279,273       1,253,600
96937601     City of Brea                     Replace a sewer main                                    583,000          192,400
96939101     City of Carson City	             Establish baseline and background water quality         349,818          192,400
                                              conditions and document future conditions
                                              resulting from controlling the discharges from a
                                              reservoir and resulting springs.
96942401     County of Hawaii                 Design and construct improvements to two               3,600,000       1,364,250
                                              wastewater systems
96951901     Cutler Public Utility District   Improve capacity of a wastewater treatment plant       3,879,800         967,900
97072901     City of Palmer                   Construct new water distribution mains                 2,838,545       1,561,200
96021801     City of Roslyn                   Construct a new sewer line and pump station            2,050,000         433,700
96002801     City of Wilsonville              Implement and measure the effectiveness of              355,900          192,900
                                              demonstration projects designed to reduce
                                              stormwater runoff
96000501     	Fairbanks North Star            Connect landfill to a municipal sewer lift station     1,453,658         404,520
             Borough
96017401     Wahkiakum County                 Expand a drinking water system                         1,846,700       1,455,000


Total for All Sampled STAG Grants 	                                                                $87,690,576     $33,330,884



     Source: Grant numbers, recipient names, and funding amounts were obtained from EPA's Integrated Grants Management
     System. The project descriptions were developed by OIG based on our work plan reviews.




                                                                 11 

                                                                                                              Appendix C

                EPM and S&T Earmark Grants Reviewed
                                                                                                   Total
  Grant                                                                                           Project        EPA
 Number               Recipient 	                         Short Description                       Budget 	    Contribution
             Earmark Grants That Did Not Contribute to EPA's Strategic Plan Mission and Goals (4)
97133501     City of New Bedford 	          Encourage students to pursue environmental             $250,000        $250,000
                                            careers and train the local community for
                                            environmental jobs.
97131301     City of New Bedford            Construct and equip a computer lab to enhance           347,100         247,100
                                            a marine science learning center.
97318801 	   Caribbean American Mission     Conduct environmental education for high school         497,050         497,050
             for Education, Research and    students in Philadelphia and the Virgin Islands.
             Action, Inc.
83245701     State of New Jersey, Rutgers   Evaluate the noise impact on a local community          299,907         299,907
             University                     of parked, idling freight trains

                Earmark Grants That Contributed to EPA's Strategic Plan Mission and Goals (34)
83276901     University of Vermont State    Evaluate the consequences on forest health             $198,400        $198,400
             and Agricultural College       resulting from acid rain
83231701     Houston Advanced Research      Conduct research on air quality problems in             969,300         969,300
             Center                         Texas
83275501     Montana Physical Sciences      Conduct research on the use of waste grease to          770,500         770,500
             Foundation                     produce biodegradable products
83269001     Syracuse University            Conduct research to produce environmentally           3,568,476       3,568,476
                                            friendly indoor air systems that reduce human
                                            exposure to contaminants
83245401     University of North Carolina   Determine methods to eliminate the use of               678,600         678,600
             at Chapel Hill                 solvents and water in lithography (a method of
                                            printing) 

83234501     University of Vermont State    Develop a digital database of riparian (land near 
      97,000          97,000
             and Agricultural College       water) zones throughout Vermont to assist with 

                                            ecosystem protection
83259101     Board of Trustees of           Increase capacity of small drinking water               496,000         496,000
             University of Illinois         systems through research and outreach
83264201     Water Environment              Provide training and technical assistance for         1,065,000         972,200
             Federation                     wastewater treatment agencies to help
                                            implement environmental management systems
83256101     Water Systems Council 	        Conduct research and outreach concerning                992,000         992,000
                                            groundwater protection and allocation on small
                                            private and shared wells
97146501     City of Warwick                Study the feasibility of constructing a wastewater      248,000         248,000
                                            system that reduces the level of nitrogen loads
97123101     Northeast Waste                Assist States in prioritizing, managing, and            198,400         198,400
             Management Officials           improving stewardship of solid waste programs
             Association
99252810     Cayuga County Soil and         Implement best management practices to                  781,189         744,000
             Water Conservation District    improve water quality (2005-2006)
99252809     Cayuga County Soil and         Implement best management practices to control          783,100         745,600
             Water Conservation District    non-point source pollution and improve water
                                            quality (2004-2005)
97281200     Central New York Regional      Conduct public outreach to reduce non-point             248,000         248,000
             Planning and Development       source pollution in the Oneida Lake watershed
             Board
99250908     Cortland County Soil and       Conduct projects and provide outreach to reduce         745,600         745,600
             Water Conservation District    nutrients and sediment in watersheds
97291801     LaGuardia Community            Increase asthma education and environmental             248,500         248,500
             College                        interventions to reduce and prevent asthma
                                            triggers in the home




                                                             12 

                                                                                                        Total
  Grant                                                                                                Project         EPA
 Number               Recipient                               Short Description                        Budget       Contribution
97279005     New Jersey Department of           Develop a Smart Growth interactive mapping               $99,400          $99,400
             Environmental Protection           program to identify environmentally optimal
                                                areas to develop
99253110     Onondaga County Soil and           Implement best management practices to reduce            783,158          744,000
             Water Conservation District        non-point source pollution
97279801     Trustees of Columbia               Conduct research related to environmental                198,800          198,800
             University                         cancer causing pollution
97311201     Jastech Development                Establish a training assisted pollution prevention       248,500          248,500
             Services Inc.                      and conservation program
97321201     Maryland Department of the         Demonstrate a new acid mine drainage                     323,000          248,000
             Environment                        technology
99373508     Ohio River Valley Water            Generate a data-set relating to pollutant levels in      217,385          200,372
             Sanitation Commission              the Ohio River
97322101     Prince George's County             Demonstrate use of Low Impact Development               1,476,435       1,091,200
             Government                         and new waste management practices
98755801     Cerro Gordo County                 Implement water quality improvements to reduce           174,000          174,000
                                                pollution
97831701     Montana Department of the          Replace environmentally noncompliant heating             985,200          985,200
             Environment                        devices in low-income homes to improve air
                                                quality
96936801     City of Highland                   Develop recycling and solid waste educational            297,600          297,600
                                                displays at an environmental learning center
96938001     Golden Gate National Parks         Implement priority habitat protection in the             298,200          298,200
             Conservancy                        California Coastal Trail corridor
96001201     Alaska Department of               Conduct a safety study of mercury levels in fish         994,100          994,100
             Environmental Conservation
97031102     Boise State University             Continue to develop a device that quantifies            1,686,400       1,686,400
                                                contaminants in subsurface soil
96004601     Boise State University             Develop improved techniques to detect and               1,488,000       1,488,000
                                                monitor contaminants in shallow subsurface soil
97098601     Franklin Conservation District 	   Continue to implement a ground water                     695,900          695,900
                                                management plan and monitor the condition of
                                                an aquifer
96005801     Idaho Department of                Conduct various projects to improve water               1,998,200       1,998,200
             Environmental Quality              quality
96016301     Kenai Watershed Forum              Protect and restore the watershed through data          1,131,885       1,131,885
                                                collecting, monitoring, and modeling
96028501     Washington Department of           Implement management plan to improve Puget              3,941,200       1,970,600
             Ecology                            Sound water quality

Total for All Sampled EPM and S&T Grants	                                                             $30,519,485     $27,764,982

     Source: Grant numbers, recipient names, and funding amounts were obtained from EPA's Integrated Grants Management
     System. The project descriptions were developed by OIG based on our work plan reviews.




                                                                 13 

                                                                            Appendix D

                            Agency Response


                                      May 4, 2007

MEMORANDUM

SUBJECT:       Draft Audit Report:
               Number of and Cost to Award and Manage EPA Earmark Grants,
               And Their Impact on the Agency’s Mission
               Assignment No. 2007-000042

FROM:          Luis A. Luna /s/
               Assistant Administrator

TO:            Janet Kasper
               Director for Assistance Agreement Audits

       Thank you for the opportunity to provide EPA’s comments on the Draft Audit
Report. The Report finds that most earmark projects have the potential to contribute to
EPA’s mission. It identifies a few projects, however, that the Office of Inspector General
believes do not have a clear impact on advancing EPA’s mission and goals. The Agency
has comments on the Report’s discussion of two of these projects. These comments are
attached. If you have any questions about the comments, please contact Howard
Corcoran, Director, Office of Grants and Debarment at (202) 564-1903.

Attachment

cc: 	Senior Resource Officials
     Grants Management Officers
     Junior Resource Officials
     Frank Snock
     Denise Harris
     Lorraine Fleury
     Jerry Kurztweg
     Howard Corcoran
     Richard Kuhlman
     Stefan Silzer
     Laurice Jones
     John Nolan




                                           14 

                                   ATTACHMENT


Region 3 Comment: Grant to the Caribbean American Mission for Education, Research
and Action, Inc.

        Region 3 does not agree with the Report’s suggestion that this project, as
described in the approved grant workplan, is not clearly within EPA’s mission. The
workplan is explicit that the purpose of the project was to provide students from
moderate-income families with an opportunity to increase their knowledge about the
environment with a special emphasis on an understanding of the ecological system in
urban areas and in the Caribbean. Students would be chosen from Philadelphia and from
St. Thomas, U.S. Virgin Islands to exchange information and experiences about
environmental issues. Participants would: 1) attain a greater understanding of
environmental issues in the islands and inner cities; 2) learn how to develop, plan and
execute projects that address environmental issues in their respective areas; and 3)
develop skills in interacting with other environmental organizations in the areas. The
goal for each student, according to the workplan, was to "develop an understanding of the
importance of caring for the environment locally and globally...." The Region believes
that fostering environmental stewardship in this manner falls squarely within EPA's
mission.

        Region 3 also disagrees with the Report’s suggestion that EPA included
substantial funding in the approved workplan for student travel between Philadelphia and
the U.S. Virgin Islands, student visits to amusement parks and resort locations and
student shopping trips. The workplan contemplated that students would largely
communicate across the geographical divide by computer and authorized only limited
travel between Philadelphia and the U.S. Virgin Islands. Further, it in no way allowed
funding for travel involving amusement parks, resort locations or shopping trips. We
understand that this type of travel was mentioned in a trip agenda included in a progress
report filed by the grantee. We are in the process of conducting a compliance review of
the project. If the review finds that grant funds were used for that purpose, the Region
will seek recovery of those funds.

Office of Air and Radiation comment: Grant to Rutgers, The State University of New
Jersey

       The Report correctly notes that EPA does not explicitly include noise among the
goals and objectives of the Agency’s Strategic Plan, and that EPA no longer has a noise
regulatory program. The Office of Air and Radiation believes, however, that the type of
community support provided to Teaneck, New Jersey under the project is covered under
Goal 4, Healthy Communities and Ecosystems, Sub-objective 4.2: Communities. This
sub-objective focuses on EPA activities that will help communities sustain or restore
community health by addressing community-specific environmental concerns.




                                           15 

                                                                            Appendix E

                                 Distribution

Office of the Administrator
Assistant Administrator for Air and Radiation
Assistant Administrator for Administration and Resources Management
Regional Administrator, Region 1
Regional Administrator, Region 3
Director, Office of Grants and Debarment
Director, Grants Administration Division
Agency Followup Official (the CFO)
Agency Followup Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
General Counsel
Acting Inspector General




                                         16 

